RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-460
Alexander Y. Usenko, Derivatively on Behalf of the
SunEdison Semiconductor Ltd. Retirement Savings Plan,
Petitioner,
v.
MEMC LLC, et al.,
Respondents.
As required by Supreme Court Rule 33.1(h), I, Mark B. Blocker, certify that
the Brief in Opposition in the foregoing case contains 5,554 words, excluding the
parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on November 6, 2019.
/s/ Mark B. Blocker
MARK B. BLOCKER
SIDLEY AUSTIN LLP
One South Dearborn Street
Chicago, IL 60603
(312) 853-7000

